   OFFICE OF INSPECTOR GENERAL

AUDIT OF THE MILLENNIUM CHALLENGE
CORPORATION’S FINANCIAL STATEMENTS,
INTERNAL CONTROLS, AND COMPLIANCE
FOR THE PERIOD ENDING
SEPTEMBER 30, 2013 AND 2012


AUDIT REPORT NO. M-000-14-001-C
December 13, 2013
WASHINGTON, DC


Financial information contained in this report may be privileged. The
restrictions of 18 USC 1905 should be considered before any information is
released to the public.
Office of Inspector General


December 13, 2013


Mr. Daniel Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005-2203


Subject:             Audit of the Millennium Challenge Corporation’s Financial Statements,
                     Internal Controls, and Compliance for the Period Ending September 30,
                     2013 and 2012 (Report No. M-000-14-001-C)

Dear Mr. Yohannes:

Enclosed is CliftonLarsonAllen LLP’s, final report on the subject audit. The Office of Inspector
General (OIG) contracted with the independent certified public accounting firm of
CliftonLarsonAllen LLP, to audit the financial statements of the Millennium Challenge
Corporation (MCC) for the period ending September 30, 2013. The contract required that the
audit be performed in accordance with United States Generally Accepted Government Auditing
Standards, Office of Management and Budget (OMB) Bulletin 14-02, Audit Requirements for
Federal Financial Statements, and the GAO/PCIE Financial Audit Manual.

The Independent Auditors expressed an unqualified opinion on MCC’s FY 2013 Financial
Statements. The report stated that the financial statements referred to above present fairly, in all
material respects, the net position of MCC as of September 30, 2013, and its net cost, changes
in net position and budgetary resources for the fiscal year then ended, in conformity with
accounting principles generally accepted in the United States of America.

In its audit of MCC’s fiscal year 2013 financial statements the auditor’s identified one issue that
was considered a material weakness and three other issues that were considered significant
deficiencies. These matters are listed below and are detailed in the auditor’s report.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of an entity's financial statements will not be prevented,
or detected and corrected on a timely basis.
U.S. Agency for International Development
Office of Inspector General
1300 Pennsylvania Ave, NW
Washington, DC 20523
http://oig.usaid.gov/
Material Weakness

        Ineffective and Inefficient Integration of Data, Processes, and Controls within the
        Financial Management Systems (Modified Repeat Finding)

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance.

Significant Deficiencies

        Validation Control over Grant Accrual Estimates Needs to be Strengthened ( Modified
        repeat Finding)

        Monitoring of MCAs Audits Needs to be Strengthened (Modified Repeat Finding)


        Information Systems Controls Need Improvement

The auditors did not note any instance of material non-compliance with laws and regulations.

In carrying out its oversight responsibilities, the OIG reviewed CliftonLarsonAllen LLP, Internal
Audit Report and audit documentation. This review, as differentiated from an audit in
accordance with U.S. Generally Accepted Government Auditing Standards was not intended to
enable the OIG to express, and we do not express, opinions on MCC’s financial statements, or
internal control; or on MCC’s compliance with other laws and regulations. CliftonLarsonAllen
LLP is responsible for the attached auditor’s report, dated December 11, 2013, and the
conclusions expressed in the report. However, our review disclosed no instances where
CliftonLarsonAllen LLP, did not comply, in all material respects, with applicable standards.

To address the material weakness and significance deficiencies in internal controls reported by
CliftonLarsonAllen LLP, we are listing below the findings with 11 recommendations to MCC’s
management:

Material Weakness

Ineffective and Inefficient Integration of Data, Processes, and Controls within the
Financial Management Systems (Modified Repeat Finding)

Recommendations

With regards to the core financial system, we recommend that MCC:

   1.   Perform a comprehensive review and determine whether the SSP’s financial
        management system is meeting MCC financial management and reporting needs. As
        part of this review, management should continue to evaluate whether:

               a. a separate grants management system that focuses on program and financial
                  administrations that interfaces with the core financial system is needed, or




                                                  3
               b. to establish alternatives to recording numerous data lines in the Oracle AP
                  module which is manual intensive and prone to errors.

   2. Investigate and correct the underlying causes for the system errors and limitations that
      prevent or delay the recording, processing, and summarizing of accounting transactions.
      Key issues that remain unresolved should be escalated immediately rather than back-log
      the problem. MCC should ensure that errors and open tickets are resolved appropriately
      and timely by the SSP and that routine MCA accounting activities (such as the NA/NA
      fund transactions) are recorded in Oracle within the specified timeline. Moreover, manual
      adjusting journal entries should be used for limited transactions like unusual one-time
      entries or correcting entries.

   3. In collaboration with the SSP, formalize in writing the system’s issues and resolution
      process. This will include developing a standardized remedy ticket listing with relevant
      and historical information.

   4. Continue to streamline the Monthly Commitments and Disbursements Report (MCDR)
      recording and adjustment process. With regards to supervisory reviews, we recommend
      that MCC:

   5. Implement an effective management review of its accounting and financial reporting
      processes using the comprehensive review process to ensure that all transactions for
      the accounting period are accurately and completely reflected in the financial
      statements, beginning balances agreed to ending balances, and reconciling items are
      recorded timely. Such management reviews should be performed monthly or quarterly
      and at year-end timely.

   6. Further review SSP data entries relating to MCA payment processing and related
      adjustments. Perform reconciliation of AP on a monthly basis and proactively resolve all
      differences.

Significant Deficiencies

Validation Control over Grant Accrual Estimates Needs to be Strengthened (Modified
Repeat Finding)

Recommendations:

We recommend that MCC:

   7.    Develop and implement a logical and supportable look back validation process to
        assess the reasonableness of the grant accrual estimate, and then perform a grant
        accrual look back analysis on a quarterly basis for a sufficient period of time to develop a
        pattern or trend. The look back analysis and the results should provide MCC sufficient
        information to explain unusual variances between actual and estimates, or support
        updating the current grant accrual methodology. Such periodic assessment of the
        adequacy of the grant accrual methodology should be documented and supported by
        data analysis. Note that the accrued liability amount is subject to the risks that actual
        subsequent disbursement amount may be significantly different from management’s
        estimate. When this occurs, management should further analyze the drivers/factors to
        ensure the validity and reasonableness of the estimation methodology.




                                                 4
   8. Update the Expense Accruals Policy and Procedures to reflect the change in the
      methodology. At a minimum, the policy and procedures should include the following:

      a. documentation of the procedures and flow of information used in developing grant
         accrual estimates;
      b. a discussion of who (position title) is responsible for each step of the estimate as
         well as the review and approval process followed;
      c. the model used, the rationale for selecting the specific methodology, and, for
         programs with sufficient historical data, the degree of calibration within the
         projected spending model; and
      d. the sources of information, the logic flow, and the mechanics of the model,
         including the formulas and other mathematical functions.

   9. Develop audit procedures for the MCA audit to compare spending authority amount
      granted against actual MCA expenses, and investigate and document significant
      variances. MCC should maintain a library of historical MCA financial data. This
      information may be used by MCC to validate or enhance its current methodology.

   10. Continue to enhance the accrual methodology by:

      a. stratifying the MCAs based on variances in their spending rates and/or stages in the
          compact’s life cycle;
      b. developing and implementing a process to ensure that compacts that are partially
         managed by MCC are fully addressed within the grant accrual process.
      c. addressing situations where the MCA exceeds its quarterly spending authority;
      d. addressing situations where the compact has expired and there is no spending
         authority and disbursements are still occurring;
      e. obtaining detailed document level breakdown of expenses to be used to compare
         against the accrual estimates;
      f. reviewing the disbursement patterns by compact to identify those with large
         fluctuations to determine the cause so that adjustments can be made in developing
         the spending plan or in how the grant accrual is calculated to improve the accuracy
         of the grant accrual estimate; and
      g. other factors as deemed necessary to achieve an acceptable precision of the accrual
         estimate.

Monitoring of MCA’s Audits Needs to be Strengthened (Modified Repeat Finding)

Recommendation:

   11. Continue the collaboration between the USAID OIG and the MCC management to
       improve timeliness of the MCA audits; adequacy of the MCA audit procedures;
       monitoring and reviewing the quality and performance of the MCA audits; and tracking
       and conducting follow-up of corrective action plans with the MCAs timely.




                                              5
Information Systems Controls Need Improvement (Modified Repeat Finding)

Recommendation:

We are not repeating our recommendations which are included in the USAID OIG Report titled
“Audit of Millennium Challenge Corporation’s Fiscal Year 2013 Compliance with Federal
Information Security Management Act of 2002,” Audit Report M-000-13-005-P, dated
September 20, 2013.

The OIG acknowledges MCC’s management decisions for all 11 recommendations. Please
inform us when final action has been achieved.

We appreciate the cooperation and courtesies extended to our staff and to the staff of
CliftonLarsonAllen LLP, during the audit. Please contact Fred Jones at (202) 216-6963, if you
have any questions concerning this report.


                                                     Sincerely,

                                                          /s/
                                                     Robert L. Fry
                                                     Acting Deputy Assistant Inspector General
                                                     for Audit
                                                     Millennium Challenge Corporation



       cc:    Steven Kaufmann, Chief of Staff
              kaufmannsm@mcc.gov

              Chantale Wong, Vice President of Administration and Finance
              wongcy@mcc.gov

              Kamran Khan, Vice President of Compact Operations
              khank@mcc.gov

              Terry Bowie, Chief Financial Advisor
              tlbowie@mcc.gov

              Eric Redmond, Assistant Deputy Chief Financial Officer
              redmondeg@mcc.gov

              Monique Ricker, Compliance Officer
              rickermt@mcc.gov




                                                6
                     MILLENNIUM CHALLENGE CORPORATION

                                      September 30, 2013

                                           Table of Contents



Description                                                               Page

INDEPENDENT AUDITORS’ REPORT                                                 1

    Exhibit 1 – Material Weakness                                          1-1

    Exhibit 2 – Significant Deficiencies                                   2-1

    Exhibit 3 – Status of Prior Year Audit Findings and Recommendations    3-1

    Exhibit 4 – Management’s Response to Audit Findings                    4-1
                                                                         CliftonLarsonAllen LLP
                                                                         www.cliftonlarsonallen.com




                                   INDEPENDENT AUDITORS’ REPORT


To the Inspector General
U.S. Agency for International Development

To the Board of Directors
Millennium Challenge Corporation

In our audits of the fiscal years (FY) 2013 and 2012 financial statements of the Millennium Challenge
Corporation (MCC), we found:

    •   The financial statements are presented fairly, in all material respects, in accordance with
        accounting principles generally accepted in the United States of America (U.S.);
    •   One material weakness and three significant deficiencies in internal control over financial
        reporting; and
    •   No instance of reportable noncompliance with certain provisions of laws, regulations, contracts,
        and grant agreements tested.

The following sections and Exhibits discuss in more detail: (1) these conclusions, (2) Management’s
Discussion and Analysis (MD&A), other required supplementary information (RSI), and other information
included with the financial statements, (3) management’s responsibility, (4) our responsibilities, (5)
management’s response to findings, and (6) the current status of prior year findings.

REPORT ON THE FINANCIAL STATEMENTS

We have audited the accompanying financial statements of MCC, which comprise the balance sheets as
of September 30, 2013 and 2012, and the related statements of net cost and changes in net position,
and the combined statements of budgetary resources, for the years then ended, and the related notes
to the financial statements. The objective of our audits was to express an opinion on the fairness of
these financial statements.

Management’s Responsibility for the Financial Statements

MCC management is responsible for the (1) preparation and fair presentation of these financial
statements in accordance with accounting principles generally accepted in the U.S., (2) preparation,
measurement, and presentation of the RSI in accordance with accounting principles generally accepted
in the U.S., (3) preparation and presentation of other information in documents containing the audited
financial statements and auditors’ report, and consistency of that information with the audited financial
statements and the RSI; (4) design, implementation, and maintenance of internal control relevant to the
preparation and fair presentation of financial statements that are free from material misstatement,
whether due to fraud or error.




                                                   1
Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the U.S. and the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the financial statements are free from material
misstatement. We also conducted our audits in accordance with Office of Management and Budget
(OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements, (OMB Bulletin 14-02).

An audit of financial statements involves performing procedures to obtain audit evidence about the
amounts and disclosures in the financial statements. The procedures selected depend on the auditors’
judgment, including the auditors’ assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor considers
internal control relevant to the entity’s preparation and fair presentation of the financial statements in
order to design audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the entity’s internal control. Accordingly, we express no
such opinion. An audit of financial statements also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by
management, as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.

Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of MCC as of September 30, 2013 and 2012, and its net costs, changes in net position,
and budgetary resources for the years then ended, in accordance with accounting principles generally
accepted in the U.S.

Other Matters

Required Supplementary Information
Accounting principles generally accepted in the U.S. require that MCC’s MD&A and other Required
Supplementary Information (RSI) be presented to supplement the financial statements. Such
information, although not a part of the financial statements, is required by the Federal Accounting
Standards Advisory Board (FASAB), who considers it to be an essential part of financial reporting for
placing the financial statements in an appropriate operational, economic, or historical context. We have
applied certain limited procedures to the MD&A and other RSI in accordance with auditing standards
generally accepted in the U.S., which consisted of inquiries of management about the methods of
preparing the information and comparing the information for consistency with management's responses
to our inquiries, the financial statements, and other knowledge we obtained during our audit of the
financial statements. We do not express an opinion or provide any assurance on the information
because the limited procedures do not provide us with sufficient evidence to express an opinion or
provide any assurance.




                                                    2
Other Information
All other information exclusive of the financial statements, MD&A and other RSI as listed in the table of
contents contains a wide range of information, some of which is not directly related to the financial
statements. This information is presented for purposes of additional analysis and is not a required part
of the financial statements or RSI. The information has not been subjected to the auditing procedures
applied in the audit of the financial statements, and accordingly, we do not express an opinion or
provide any assurance on it.

REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER
MATTERS BASED ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
GOVERNMENT AUDITING STANDARDS

Report on Internal Control over Financial Reporting

In planning and performing our audit of the financial statements, we considered MCC’s internal control
over financial reporting (internal control) to determine the audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of MCC’s internal control or on management’s
assertion on internal control included in the MD&A. Accordingly, we do not express an opinion on the
effectiveness of MCC’s internal control or on management’s assertion on internal control included in the
MD&A.

Our consideration of internal control was for the limited purpose described in the preceding paragraph
and was not designed to identify all deficiencies in internal control that might be material weaknesses or
significant deficiencies and therefore, material weaknesses or significant deficiencies may exist that
were not identified. However, we identified certain deficiencies in internal control described below that
we consider to be a material weakness and significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of MCC’s financial statements will not be prevented, or detected and corrected on a
timely basis. We consider the deficiencies summarized below and described in Exhibit 1 to be a material
weakness.

                  Ineffective and Inefficient Integration of Data, Processes and Controls within
                                       the Financial Management Systems

A significant deficiency is a deficiency, or combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies summarized below and described in Exhibit 2 to be significant
deficiencies.

               Validation Control over Grant Accrual Estimates Needs to be Strengthened

                          Monitoring of MCAs Audits Needs to be Strengthened



                                                     3
                             Information Systems Controls Need Improvement

Also, as required by OMB Bulletin 14-02, we compared the material weakness identified during the audit
with the material weakness included in the MCC’s Federal Managers Financial Integrity Act (FMFIA)
report that relate to financial reporting. We noted no exception.

Report on Compliance and Other Matters

As part of obtaining reasonable assurance about whether MCC’s financial statements are free from
material misstatement, we performed tests of MCC’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements that have a direct effect on the determination of material
amounts and disclosures in the financial statements. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests disclosed no instances of noncompliance or other matters that are required to
be reported in accordance with Government Auditing Standards, issued by the Comptroller General of
the United States or OMB Bulletin 14-02.

Management’s Responsibility for Internal Control and Compliance

MCC management is responsible for (1) evaluating the effectiveness of internal control over financial
reporting based on criteria established under the FMFIA, (2) providing a statement of assurance on the
overall effectiveness on internal control over financial reporting, and (3) ensuring compliance with other
applicable laws, regulations, contracts, and grant agreements.

Auditors’ Responsibilities

We are responsible for: (1) obtaining a sufficient understanding of internal control over financial
reporting to plan the audit, (2) testing compliance with certain provisions of laws and regulations that
have a direct and material effect on the determination of material amounts and disclosures in the
financial statements and applicable laws for which OMB Bulletin 14-02 requires testing, and (3) applying
certain limited procedures with respect to the RSI included with the financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly established by the
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient operations.
We limited our internal control testing to testing controls over financial reporting. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or noncompliance may
nevertheless occur and not be detected. We also caution that projecting our audit results to future
periods is subject to risk that controls may become inadequate because of changes in conditions or that
the degree of compliance with controls may deteriorate. In addition, we caution that our internal
control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to MCC. We limited our tests of
compliance to selected provisions of laws and regulations that have a direct effect on the determination
of material amounts and disclosures in the financial statements and those required by OMB Bulletin 14-
02 that we deemed applicable to MCC’s financial statements for the fiscal year ended September 30,
2013. We caution that noncompliance with laws and regulations may occur and not be detected by
these tests and that such testing may not be sufficient for other purposes.



                                                    4
MANAGEMENT’S RESPONSE TO AUDIT FINDINGS

Management’s response to audit findings identified in our report is presented in Exhibit 4. We did not
audit MCC’s response and, accordingly, we express no opinion on it.

STATUS OF PRIOR YEAR’S CONTROL DEFICIENCIES AND NONCOMPLIANCE ISSUES

We have reviewed the status of MCC’s corrective actions with respect to the findings included in the
prior year’s Independent Auditors’ Report, dated November 12, 2012. The status of prior year findings
and recommendations is presented in Exhibit 3.

PURPOSE OF THE REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND THE REPORT ON
COMPLIANCE AND OTHER MATTERS

The purpose of the Report on Internal Control over Financial Reporting and the Report on Compliance
and Other Matters sections of this report is solely to describe the scope of our testing of internal control
and compliance and the result of that testing, and not to provide an opinion on the effectiveness of
MCC’s internal control or on compliance. These reports are an integral part of an audit performed in
accordance with Government Auditing Standards in considering MCC’s internal control and compliance.
Accordingly, these reports are not suitable for any other purpose.


CLIFTONLARSONALLEN LLP




Arlington, Virginia
December 11, 2013




                                                     5
                                                EXHIBIT 1

                                         MATERIAL WEAKNESS


1. Ineffective and Inefficient Integration of Data, Processes, and Controls within the Financial
   Management Systems (Modified Repeat Finding)

GAO Standards for Internal Control in the Federal Government states that internal control is not one
event, but a series of actions and activities that occur throughout an entity’s operations and on an
ongoing basis. Control activity, which is one of the standards for internal control, may be applied in a
computerized information system environment, or through manual processes. Information system
control should be installed at an application’s interfaces with other systems to ensure that all inputs are
received and are valid, and outputs are correct and properly distributed. Some control activities include:
controls over information processing, management of human capital, proper execution of transactions
and events, accurate and timely recording of transactions and events, and appropriate documentation
of transactions. Monitoring, which is another standard for internal control, is performed continually and
is ingrained in the agency’s operations. It includes regular management and supervisory activities,
comparisons, reconciliations, and other actions people take in performing their duties.

Accounting is a systematic process of identifying, recording, measuring, classifying, verifying,
summarizing, interpreting and communicating financial events. These financial events are ultimately
presented in financial statements through the financial reporting process. Each step in the accounting
process is an integral part of the financial reporting process.

A financial management system includes the core financial system and the financial portions of mixed
systems necessary to support financial management, including automated and manual processes,
procedures and controls, data, software, and support personnel dedicated to the operation and
maintenance of system functions.

MCC continued to design and implement internal control to improve its accounting and financial
reporting processes. For example, in FY 2013, MCC required the Millennium Challenge Account entities
(MCAs) to perform and submit monthly reconciliation of compact disbursements report (MCDR) with
those recorded in MCC’s financial systems and resolve the identified variances with the MCC’s shared
service provider (SSP) timely. In addition, MCC established some accounting transaction models to be
followed when performing routine manual accounting entries to ensure that they are done correctly.
Moreover, MCC has successfully exported its core system’s trial balance (TB) into a spreadsheet used to
prepare the financial statements and eliminated significant manual cutting and pasting of the systems’
TB into the FS spreadsheets. However, MCC continues to face a huge challenge in its accounting and
reporting processes primarily due to its financial management systems’ limitations, and the sheer
volume of financial activities that are complex and require manual attentions and reviews to
compensate for the systems’ limitations. As a result, the accounting and financial reporting processes, as
a whole, is inefficient, and the risks that internal controls are not effective to prevent, detect, and
correct errors timely is high, increasing the reasonable possibility of a material misstatement in the
financial statements.




                                                   1-1
We presented all our findings to MCC management in written notices of findings and recommendations
(NFRs) and obtained their written responses to our NFRs. We have summarized and grouped those
findings into systemic issues below:

   a. MCC uses a SSP to process its accounting transactions. The SSP’s core financial system current
      configurations prevent MCC from recording significant transactions in a systematic and correct
      manner. Issues with Oracle posting model and related version upgrades continue to exist. Our
      review of the September 30, 2013 SSP’s open system ticket report, which tracks financial system
      issues, identified issues that remain unresolved for an unreasonable period of time. Due to the
      volume and variety of transactional financial events that MCC must record relating to its
      grantees; MCC frequently has to prepare manual journal vouchers and system’s adjustments at
      the back end of the transactions to correct errors such as the differences between the a)
      Purchase Order (PO) and General Ledger (GL) module, b) Accounts Payable (AP) and GL module,
      c) incorrect postings, d) system module interface errors, and e) others. This system deficiency,
      combined with MCC and/or SSP’s inadequate and untimely reviews and corrective actions,
      negatively impact MCC’s ability to record transactions timely, properly, and accurately. Although
      MCC applied compensating controls to detect and correct these errors, with the sheer volume
      and complexity of these transactions (automated and manual), there is a high risk that errors
      will not be detected and corrected timely or not detected at all. Our audit identified instances
      where this situation occurred. Moreover, this system deficiency results in inefficiencies and
      negatively impacts MCC’s limited staff resources.

       The government-wide policies and standards issued pursuant to FMFIA, states that agencies are
       responsible for managing their financial management system even when they utilize a service
       provider to implement, operate and maintain the systems. Agencies must ensure that their
       financial management systems meet applicable Federal requirements and are adequately
       supported throughout the systems’ life cycle. Furthermore, agencies must monitor the service
       provider’s performance and ensure that service failures are resolved promptly.

   b. Although MCC has made strides in improving its financial reporting process by implementing
      certain quality control review processes in response to prior year’s findings, much still needs to
      be done. MCC’s accounting and financial statements preparation process continue to be
      susceptible to errors even though a number of functionalities have been automated. MCC uses
      the Oracle federal financial management system (Oracle) to generate its financial statements.
      Manual journal voucher (JV) entries are posted directly into Oracle to correct errors and/or post
      adjustments. Oracle then automatically generates the financial statements from these data
      inputs. Our audit identified instances where MCC missed posting manual journal entries, or
      posted correcting journal entries that resulted in further errors in Oracle at June 30, 2013 and
      September 30, 2013. Some of these missing manual journal entries or erroneous correcting
      journal entries are described in c below.

   c. In reviewing the financial statements and performing our internal control testing, we identified
      errors and control deficiencies that led us to question the effectiveness and timeliness of
      supervisory reviews. For example,
          o Advances balance at June 30, 2013 was overstated by $119 million which was the first
              quarter accrual that was not reversed in the subsequent two quarters. MCC uses
              manual journal entry to reverse the accrual. MCC detected and corrected the error in
              September 2013.


                                                 1-2
           o   Compact related expenses of approximately $2.4 million from several MCAs were
               erroneously reported as Accounts Payable due to SSP recording errors within Oracle.
           o   Undelivered order (UDO) amount disclosed in the notes to the financial statements was
               erroneously recorded in the “Compact” portion of UDO overstating the amount
               disclosed by $50 million.
           o   Incorrect cost classification as “with the public” and negative program cost of
               approximately $1.4 million were presented in the note disclosure due to the absence of
               a trading partner code being entered in oracle at the time of entry.
           o   The SSP initiated JVs were not always tracked in the MCC consolidated JV log and did
               not have approval from authorized MCC personnel.
           o   MCC does not always validate the propriety of the SSP’s open ticket resolution. The
               remedy ticket listing maintained to keep track of open ticket system’s issues is overly
               broad and difficult to know the exact status of any issue without extensive follow-up.
               Furthermore, issues resolved are removed from the listing without any history tracking;
               that is, what was the original issue; how was the issue resolved; how extensive was the
               issue; and whether the resolution corrected the issue.
           o   JVs have inaccurate or inadequate explanation and/or supporting documentation.
           o   MCC and the SSP, separately and unknowingly, made correcting entries in an effort to
               correct same transactions incorrectly posted in Oracle. This resulted in further errors in
               the accounts that required an extensive effort from both the SSP and MCC to resolve.

Recommendations

With regards to the core financial system, we recommend that MCC:

   1. Perform a comprehensive review and determine whether the SSP’s financial management
      system is meeting MCC financial management and reporting needs. As part of this review,
      management should continue to evaluate whether:
          a. a separate grants management system that focuses on program and financial
             administrations that interfaces with the core financial system is needed, or
          b. to establish alternatives to recording numerous data lines in the Oracle AP module
             which is manual intensive and prone to errors.

   2. Investigate and correct the underlying causes for the system errors and limitations that prevent
      or delay the recording, processing, and summarizing of accounting transactions. Key issues that
      remain unresolved should be escalated immediately rather than back-log the problem. MCC
      should ensure that errors and open tickets are resolved appropriately and timely by the SSP and
      that routine MCA accounting activities (such as the NA/NA fund transactions) are recorded in
      Oracle within the specified timeline. Moreover, manual adjusting journal entries should be used
      for limited transactions like unusual one-time entries or correcting entries.

   3. In collaboration with the SSP, formalize in writing the system’s issues and resolution process.
      This will include developing a standardized remedy ticket listing with relevant and historical
      information.

   4. Continue to streamline the Monthly Commitments and Disbursements Report (MCDR) recording
      and adjustment process.



                                                  1-3
With regards to supervisory reviews, we recommend that MCC:

   5. Implement an effective management review of its accounting and financial reporting processes
      using the comprehensive review process to ensure that all transactions for the accounting
      period are accurately and completely reflected in the financial statements, beginning balances
      agreed to ending balances, and reconciling items are recorded timely. Such management
      reviews should be performed monthly or quarterly and at year-end timely.

   6. Further review SSP data entries relating to MCA payment processing and related adjustments.
      Perform reconciliation of AP on a monthly basis and proactively resolve all differences.




                                               1-4
                                               EXHIBIT 2

                                      SIGNIFICANT DEFICIENCIES


1. Validation Control over Grant Accrual Estimates Needs to be Strengthened (Modified Repeat
   Finding)

MCC reported approximately $1.5 billion in compact grant related expenditures and an accrued grant
liability of $209 million for expenditures incurred by the Millennium Challenge Accounts (MCAs) but not
yet paid by MCC at September 30, 2013. MCC applied its new grant accrual methodology for the first
time at September 30, 2012.

MCC’s new accrual methodology is calculated based on an MCA’s unused spending authority. MCC uses
the MCA’s “in-house invoices” as the floor and the spending authority request as the ceiling in
calculating the accrued liability. MCA’s in-house invoices are actual invoices held by the MCA waiting to
be submitted to the SSP for processing. The spending authority request by MCAs includes expenses that
were incurred but not yet reported. MCC approves the quarterly spending authority request in advance
for each MCA. The unused spending authority at the end of the quarter is used in the accrual calculation
for each MCA. MCC uses the MCA disbursement rate against the spending authority along with the
disbursement rates for the last three quarters to determine an average rate. The average rate is then
subtracted against 100 percent to arrive at a rate that is applied to the unused spending authority in
calculating the grant accrual estimate for the MCA.

In FY 2013, MCC continues to refine its accrual methodology and started to accumulate data store to
validate its methodology. For example, MCC separately evaluated the accruals for compact agreements
that were expiring in FY 2013. Moreover, MCC performed follow-up inquiries with MCAs whose accrual
estimates were not within their expectations. Through these reviews, MCC notified an MCA and the
MCC Department of Compact Operations in writing, of spending authority request that seemed to be
way overstated when compared to the actual results. However, MCC still has not validated some
significant assumptions in its accrual methodology and still needs to continue to develop its historical
data store to support its assumptions and validation.

Some of MCC’s bases for validating the reasonableness of the grant accrual was inadequate and could
not be supported. For example, MCC is relying on an assumption that in-house invoices and accrued
expenses are being paid within the next 30 days in its grant accrual methodology. Given the exceptions
we noted in our tests, MCC needs to perform additional validation to ensure that this assumption is still
correct; otherwise, the analysis of the accrual to actual may be off and could impact MCC’s decisions to
adjust the accrual when such an adjustment may not be warranted. We found evidence that a
significant portion of those costs would not be paid until the following months.

In addition, although MCC’s current methodology does not require further analysis on a quarter when
the difference (in total) between the disbursements and the accrual calculation is less than 10%, our
tests showed, when we compared quarterly accruals to the subsequent month’s disbursements, that the
quarterly fluctuations on a number of the MCAs individually were over +/- 50% and as high as +/- 350%.

FASAB Federal Financial Accounting Technical Release (TR) 12, Accrual Estimates for Grant Programs,
states that “As part of agencies’ internal control procedures to ensure that grant accrual estimates for


                                                  2-1
the basic financial statements were reasonable, agencies should validate grant accrual estimates by
comparing the estimates with subsequent grantee reporting.” “Preparing reliable and timely accrual
estimates for grant programs must be a joint effort between the budget, financial, and program offices
at each agency.” “Agencies should document and maintain support for the data and assumptions used
to develop grant accrual estimates. The documentation will facilitate the agency’s review of the
assumptions, a key internal control, and will facilitate the auditor’s testing of the estimates.”

In addition, MCC Expense Accrual Policy and Procedures, dated March 2011, do not reflect the current
grant accrual methodology implemented in September 2012. In developing its policy and procedures,
MCC should include various practical scenarios in its grant accrual calculation, such as how the spending
accrual ceiling will be determined when compacts are partially managed by MCC; addressing situations
where the compact has expired and there is no spending authority and disbursements are still occurring;
advances being included in the spending authority requests and subsequent disbursements as expenses;
and others.

TR 12 also states that: “Documented procedures are important to communicate relevant information on
the grant accrual estimation to employees and management as well as other interested parties, such as
auditors. As an agency experiences employee turnover, these documented procedures can provide vital
information for new employees on how to complete reliable, well supported grant accrual estimates.
Such documentation may be used to establish consistent procedures for developing grant accrual
estimates across grant programs with similar characteristics.”

Recommendations

We recommend that MCC:

        7. Develop and implement a logical and supportable look back validation process to assess the
           reasonableness of the grant accrual estimate, and then perform a grant accrual look back
           analysis on a quarterly basis for a sufficient period of time to develop a pattern or trend. The
           look back analysis and the results should provide MCC sufficient information to explain
           unusual variances between actual and estimates, or support updating the current grant
           accrual methodology. Such periodic assessment of the adequacy of the grant accrual
           methodology should be documented and supported by data analysis. Note that the accrued
           liability amount is subject to the risks that actual subsequent disbursement amount may be
           significantly different from management’s estimate. When this occurs, management should
           further analyze the drivers/factors to ensure the validity and reasonableness of the
           estimation methodology.

        8. Update the Expense Accruals Policy and Procedures to reflect the change in the
           methodology. At a minimum, the policy and procedures should include the following:

                a. documentation of the procedures and flow of information used in developing grant
                   accrual estimates;
                b. a discussion of who (position title) is responsible for each step of the estimate as
                   well as the review and approval process followed;
                c. the model used, the rationale for selecting the specific methodology, and, for
                   programs with sufficient historical data, the degree of calibration within the
                   projected spending model; and


                                                   2-2
                d. the sources of information, the logic flow, and the mechanics of the model,
                   including the formulas and other mathematical functions.

        9. Develop audit procedures for the MCA audit to compare spending authority amount
           granted against actual MCA expenses, and investigate and document significant variances.
           MCC should maintain a library of historical MCA financial data. This information may be
           used by MCC to validate or enhance its current methodology.

        10. Continue to enhance the accrual methodology by:

                a. stratifying the MCAs based on variances in their spending rates and/or stages in the
                   compact’s life cycle;
                b. developing and implementing a process to ensure that compacts that are partially
                   managed by MCC are fully addressed within the grant accrual process.
                c. addressing situations where the MCA exceeds its quarterly spending authority;
                d. addressing situations where the compact has expired and there is no spending
                   authority and disbursements are still occurring;
                e. obtaining detailed document level breakdown of expenses to be used to compare
                   against the accrual estimates;
                f. reviewing the disbursement patterns by compact to identify those with large
                   fluctuations to determine the cause so that adjustments can be made in developing
                   the spending plan or in how the grant accrual is calculated to improve the accuracy
                   of the grant accrual estimate; and
                g. other factors as deemed necessary to achieve an acceptable precision of the accrual
                   estimate.

2. Monitoring of MCAs Audits Needs to be Strengthened (Modified Repeat Finding)

OMB Circular A-123, Management Responsibility for Internal Control, states that monitoring the
effectiveness of internal control should occur in the normal course of business. In addition, periodic
reviews, reconciliations or comparisons of data should be included as part of the regular assigned duties
of personnel. Periodic assessments should be integrated as part of management’s continuous
monitoring of internal control, which should be ingrained in the agency’s operations. If an effective
continuous monitoring program is in place, it can level the resources needed to maintain effective
internal controls throughout the year.

An adequate monitoring system oversees the design, implementation, and effectiveness of controls in
mitigating risks. This monitoring system can be structured as an ongoing assessment program (for
instance, supervisory reviews of day to day financial operations and reporting) or as a point in time
program when a point in time assessment is required (for instance, MCA audits).

When a country is awarded a grant (compact), it sets up its own local MCA accountable entity to
manage and oversee all aspects of implementing the compact. The MCAs, as the grantees of MCC’s
funds, are responsible for submitting financial, programmatic and compliance documentation to MCC in
accordance with their compact agreements with MCC and other administrative requirements. MCC, as
the grantor, is responsible for reviewing and monitoring the MCA’s compliance with the compact
agreement and other administrative requirements. MCC needs to continue to strengthen its monitoring
controls over the MCA audits.




                                                  2-3
MCAs are required to obtain an annual (or semi-annual as agreed upon) financial audit of the MCC funds
by an independent auditor. We reviewed the most recent audits for 15 MCAs, which accounted for a
total of 15 MCA audit reports. Similar to last year’s finding, 9 out of 15 (or 60 percent) audit reports
were not received timely or were already due but not yet received as of November 15, 2013, our test
date. There were 7 audit reports that were submitted late, ranging from 1 month to 4 months late, and
2 audit reports due but not yet received that were over seven months late as of the test date.

A financial audit of the MCA Fund Accountability Statement conducted by an independent auditor in
accordance with Government Auditing Standards issued by the Comptroller General of the United
States, provides an assurance to MCC that the MCA’s revenues received, costs incurred, and
commodities and technical assistance directly procured by the MCC are not materially misstated, and
that tests of MCA’s internal control and compliance with compact terms and applicable laws and
regulations related to MCC funded programs were performed. The MCA financial audit is a key MCC
internal control over monitoring of MCA’s control over financial reporting and compliance and its
reliance on MCA’s financial reports. Accordingly, MCC should ensure that these audits are performed
and submitted timely, reviewed timely, and corrective actions, if any, are implemented timely.

A timely audit involves the timely engagement of an audit firm by the MCA, an agreed upon timeline
that ensures that the deliverables are provided within the deadlines, quality deliverables from the audit
firms, and timely responses from the MCA and the audit firms. We understand that both USAID OIG and
MCC are working together to minimize the delays in the MCA audits, but more can be done to address
the root causes of these delays.

Recommendation

        11. Continue the collaboration between the USAID OIG and the MCC management to improve
            timeliness of the MCA audits; adequacy of the MCA audit procedures; monitoring and
            reviewing the quality and performance of the MCA audits; and tracking and conducting
            follow-up of corrective action plans with the MCAs timely.

3. Information Systems Controls Need Improvement (Modified Repeat Finding)

All business processes today are impacted in some respects by information systems applications,
policies, and controls. Information system is key to financial information collection, classification,
allocations, and reporting.

Information systems controls must be in place to ensure that critical data, transactions and programs
are processed in a timely manner. These include controls over MCC’s general support system used to
gain access to the contractor owned financial applications. Our evaluation of the general and application
controls of MCC’s key information technology infrastructure identified the following control
weaknesses, taken together, constitute a significant deficiency.

Security Management

    •   MCC needs to strengthen personnel out-processing procedures. MCC personnel exit checklists
        were not maintained in the Staff Track and Reconciliation System (STARS) for as required in the
        MCC Exit Policy and Clearance Procedures. Additionally, while the new exit process had been
        announced and the technology implemented, the process had not been adopted by the
        stakeholders involved: Human Resources, Contracts, and Office of Security.


                                                  2-4
   •   MCC did not properly assess system risks for the fiscal year. For example:

           o      MCC did not have an Authorization to Operate (ATO) for the MCC MIS system, even
                  though the system is currently in the production environment.
           o      MCC had not maintained a current ATO for the MIDAS application. The ATO expired on
                  March 5, 2013, but the system was still in the production environment.
           o      MCC had not performed an annual risk assessment for the MIDAS or MCC MIS systems.

   •   MCC needs to ensure all personnel receive security awareness training. MCC did not track users
       who failed to participate in the daily Tips of the Day. In addition, MCC did not establish a
       required number of tips a user must view each month or year.

   •   MCC did not fully implement NIST Special Publication 800-53, Revision 3 into its information
       system security policies. MCC was in the process of updating the Policy; however, it was not
       finalized.

Contingency Planning

   •   MCC needs to update the disaster recovery plan to reflect lessons learned. The MCC Disaster
       Recovery Plan had not been updated to reflect lessons learned from the disaster recovery tests
       that occurred in December 2012.

Access Controls

   •   MCC needs to periodically review network accounts. MCC did not perform quarterly reviews of
       MCCNet group memberships as required by the MCC Access Control Procedures. In addition,
       MCC did not review service accounts that had never logged into system.

   •   MCC needs to strengthen audit and accountability controls. MCC was not reviewing or analyzing
       domain and server audit records for indications of inappropriate or unusual activity.

Configuration Management

   •   MCC needs to strengthen security controls surrounding patch and configuration management.
       MCC had procedures in place that use vulnerability scanning software to assist in detecting and
       reporting security vulnerabilities. However, our evaluation identified critical and high
       vulnerabilities on MCC hosts that MCC did not identify through its scans.

   •   MCC did not effectively track and maintain their asset inventory. MCC’s asset management is
       largely a manual process. The manual nature of the asset inventory allowed multiple, incorrect
       or delayed entries in the asset inventory.

   •   MCC’s change management procedures did not describe types of changes and levels of testing
       applied to the changes prior to approval by the Configuration Control Board.

These findings highlight MCC’s lack of compliance with the NIST publications, OMB Circulars, and FISMA
requirements as listed below:

OMB Circular A-130, Management of Federal Information Resources, Appendix III, states “Agencies shall
implement and maintain a program to assure that adequate security is provided for all agency


                                                  2-5
information collected, processed, transmitted, stored, or disseminated in general support systems and
major applications.”

The Federal Information Security Management Act of 2002 (FISMA) requires that each agency develop
an agency-wide information security program that includes:

    •   Periodic assessments of risk, including the magnitude of harm that could result from the
        unauthorized access, use, disclosure, disruption, modification, or destruction of information and
        information systems that support the operations and assets of the organization;
    •   Policies and procedures that are based on risk assessments, cost-effectively reduce information
        security risks to an acceptable level and address information security throughout the life cycle of
        each organizational information system;
    •   Plans for providing adequate information security for networks, facilities, information systems,
        or groups of information systems, as appropriate;
    •   Security awareness training to inform personnel of the information security risks associated with
        their activities and their responsibilities in complying with organizational policies and
        procedures designed to reduce these risks;
    •   Periodic testing and evaluation of the effectiveness of information security policies, procedures,
        practices, and security controls to be performed with a frequency depending on risk, but no less
        than annually;
    •   A process of planning, implementing, evaluating, and documenting remedial actions to address
        any deficiencies in the information security policies, procedures, and practices of the
        organization;
    •   Procedures for detecting, reporting, and responding to security incidents; and
    •   Plans and procedures for continuity of operations for information systems that support the
        operations and assets of the organization.

By not effectively implementing and enforcing IT policies and procedures, there is an increased risk that
financial and sensitive information may be inadvertently or deliberately misused and may result in
improper disclosure or theft without detection.

Recommendation

We are not repeating our recommendations which are included in the USAID OIG Report titled “Audit of
Millennium Challenge Corporation’s Fiscal Year 2013 Compliance with Federal Information Security
Management Act of 2002,” Audit Report M-000-13-005-P, dated September 20, 2013.




                                                   2-6
                                              EXHIBIT 3

                      STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards and OMB Bulletin 14-02, we have reviewed the status of
MCC corrective actions with respect to the findings and recommendations included in MCC’s Report on
Internal Control for FY 2012. The following analysis provides our assessment of the progress MCC has
made through September 30, 2013 in correcting the noted deficiencies.

   FY 2012 Findings         FY 2012 Summary of Recommendations                   FY 2013 Status

 I. Material Weakness:   1. Perform a comprehensive review and               Open
    Ineffective and         determine whether the service provider’s
    Inefficient             financial management system is substantially
    Interrelationship       in compliance with the federal financial
    among Software,         management system’s requirements and
    Personnel,              meeting MCC financial management and
    Procedures,             reporting needs. As part of this review,
    Controls and Data       management should determine if a separate
    within MCC’s            grants management system that focuses on
    Financial               program administrations that interfaces with
    Management              the core financial system is needed.
    Systems
                         2. Investigate and correct the causes for the       Open
                            underlying system errors and limitations that
                            prevent or delay the recording, processing,
                            and summarizing of accounting transactions.

                         3. Review USSGL transactions posting models so      Closed
                            that all routine accounting transactions are
                            included in the normal accounting processes.

                         4. Hard code key cells in the excel spreadsheets    Closed
                            used in preparing and generating the financial
                            statements to prevent unintentional or
                            inadvertent changes.

                         5. Limit access and ability to make changes to      Closed
                            the workbook to a few personnel. Assign a
                            staff and a designate as primarily responsible
                            and accountable for the workbook.

                         6. Create a log to document changes to the          Closed
                            workbook, the date of change, the person
                            making the change, and the changes made.




                                                 3-1
                        7. Investigate the use of alternative approaches    Closed
                           such as the use of a financial statement
                           generation software tool or other financial
                           management system that can interface with
                           the trial balance or the core financial system
                           and automatically generate the financial
                           statements.

                       8. Develop a comprehensive financial                 Closed
                          statements review process that detail specific
                          review steps performed, results of such
                          reviews, steps taken to resolve discrepancies
                          noted, and related management resolution.

                       9. Implement an effective management review          Open
                          using the comprehensive review process
                          developed in recommendation 8.

                       10. Cross-train MCC financial staff on the           Open but will be
                           financial statements preparation process to      reported as management
                           ensure that there is more than one person        letter comment in FY
                           knowledgeable and can prepare the financial      2013.
                           statements.

2. Significant        11. Perform a grant accrual look back analysis on     Open
   Deficiency:            a quarterly basis for a sufficient period of
   Validation Control     time to develop a pattern or trend.
   over Grant Accrual
   Estimates Needs
   to be
   Strengthened
                      12. Update the Expense Accruals Policy and            Open
                          Procedures.

                       13. Continue to enhance the accrual                  Open
                           methodology.

                       14. Develop audit procedures for the MCA audit       Open
                           to compare authority request amount against
                           actual expenses.

3. Significant         15. MCC management collaborates with USAID to        Closed
   Deficiency:             clarify and document management roles,
   Monitoring              responsibilities, and performance standards
   Control over            and the USAID OIG oversight roles with
   Funds Provided to       regards to MCA audits.
   MCAs Needs


                                                3-2
  Improvement
  A. Audit Reports
                       16. Evaluate resources, capability, and ability to    Closed
                           monitor and review the quality and
                           performance of the audits and the audit firms
                           to track and conduct follow-up of corrective
                           action plans with the MCAs in a timely
                           manner.

  B. Final Quarterly   17. Utilize the QFRs and monthly reconciliations      Closed
 Financial Report          as monitoring tools over the MCA’s financial
 (QFR)                     reporting process and MCC’s validation of its
                           financial records.

                       18. Ensure the MCA reconciliations are provided       Closed
                           to MCC and reviewed to investigate material
                           variances and make corrections, if any.

                       19. Require the MCA audit firms to test the           Open but will be
                           design and effectiveness of the MCA’s             reported as management
                           internal control over the QFRs and the            letter comment in FY
                           monthly reconciliation, and to test the           2013.
                           accuracy of the balances and reconciliation.

                       20. Develop and implement reconciliation              Closed
                           procedures to complete the reconciliation
                           between the MCA’s final QFR and MCC’s
                           records.

                       21. Timely assess the MCA’s need for the              Closed
                           remaining compact funds so that could be de-
                           obligated within the timeline in the policy and
                           procedures after the contract expires.

                       22. Develop and implement a financial                 Closed
                           management policy that separates the
                           programmatic close-out process from the
                           financial close-out process. This policy should
                           clearly lay out the expected timing for de-
                           obligation.

4. Significant         23. We did not include recommendations in our         Status of the findings and
   Deficiency:             audit report. Our recommendations were            recommendations were
   Information             included in a separate USAID OIG Report           reported separately in
   Systems Controls        titled “Audit of Millennium Challenge             USAID OIG Report titled
   Need                    Corporation’s Fiscal Year 2012 Compliance         “Audit of Millennium
   Improvement             with Federal Information Security                 Challenge Corporation’s


                                                 3-3
Management Act of 20012,” Audit Report M-   Fiscal Year 2013
000-13-001-P, dated November 6, 2012.       Compliance with Federal
                                            Information Security
                                            Management Act of
                                            2002,” Audit Report M-
                                            000-13-005-P, dated
                                            September 20, 2013.




                   3-4
                                                        EXHIBIT 4

                                       MANAGEMENT'S RESPONSE TO FINDINGS

MILLENNIUM
CI-IALLENGI3 CORPORATION
UNITED STATES OF AMERICA




             December 11, 2013

             Mia Leswing, CAP, CISA, CGFM, Partner
             CIiftonLarsonAllen, LLP
             4250 N. Fairfax Drive
             Suite 1020
             Arlington, VA 22203

             Robert Fry
             Acting Deputy Assistant Inspector General!Audit
             Millennium Challenge Corporation
             1401 H Street, NW, Suite 770
             Washington DC 20005

             Dear Ms. Leswing and Mr. Fry:

             In response to the audit findings and recommendations provided in your financial statement
             audit report MCe has the following comments:

             M(lteri(ll We(lkness: Ineffective (lnd Inefficient Integmtion of D(lt(l, Processes, (lnd
             Controls within the Fin(lnci(ll M(ln(lgement Systems (Modified Repe(lt Finding)

             Recommendations ii'om the auditors regarding the core financial system:

             1. Perform a comprehensive review and determine whether the SSP's financial management
                system is meeting MCC financial management and reporting needs. As part of this
                review, management should continue to evaluate whether:

             2. Investigate and correct the underlying causes for the system enors and limitations that
                prevent or delay the recording, processing, and summarizing of accounting transactions.
                Key issues that remain unresolved should be escalated immediately rather than back-log
                the problem. MCC should ensure that errors and open tickets are resolved appropriately
                and timely by the SSP and that routine MCA accounting activities (such as the NAINA
                fimd transactions) are recorded in Oracle within the specified timeline. Moreover, manual
                adjustingjoumal entries should be used for limited transactions like unusual one-time
                entries or conecting entries. (Modified repeat recommendation)

                      a. a separate grants management system that focuses on program and financial
                          administrations that intelfaces with the core financial system is needed, or
                      b. to establish altematives to recording numerous data lines in the Oracle AP module
                          which is manual intensive and prone to enors. (Modified repeat recommendation)


                                                            4-1
    875 Fifteenth Street NW I   Washington. DC I   20005-2221 I   p: (202) 521-3600 I f: (202) 521-3700   I www.mcc.gov
3. In collaboration with the SSP, formalize in writing the system's issues and resolution
   process. This will include developing a standardized remedy ticket listing with relevant
   and historical information. (New recommendation)

4. Continue to streamline the Monthly Commitments and Disbursements Report recording
   and adjustment process.

Recommendations fi:om the auditors regarding supervisory reviews:

5. Implement an effective management review of its accounting and financial reporting
   processes using the comprehensive review process to ensure that all transactions for the
   accounting period are accurately and completely reflected in the financial statements,
   beginning balances agreed to ending balances, and reconciling items are recorded timely.
   Such management reviews should be performed monthly or quarterly and at year-end
   timely. (Modified repeat recommendation)

6. Further review SSP data entries relating to MCA payment processing and related
   adjustments. Perform reconciliation of AP on a monthly basis and proactively resolve all
   differences. (New recommendation)

Response from MCC:
MCC concurs with recommendation I - 6.

Significant Deficiency: Validation Control over Grant Accrual Estimates Needs to be
Strengthened (Modified Repeat Finding)

Recommendations from the auditors:

7. Develop and implement a logical and supportable look back validation process to assess
   the reasonableness of the grant accrual estimate, and then perform a grant accrual look
   back analysis on a quarterly basis for a sufficient period of time to develop a pattern or
   trend. The look back analysis and the results should provide MCC sufficient information
   to explain unusual variances between actual and estimates, or support updating the
   current grant accrual methodology. Such periodic assessment of the adequacy of the grant
   accrual methodology should be documented and suppOlied by data analysis. Note that the
   accrued liability amount is subject to the risks that actual subsequent disbursement
   amount may be significantly different fi·om management's estimate. When this occurs,
   management should further analyze the drivers/factors to ensure the validity and
   reasonableness of the estimation methodology. (Modified repeat recommendation)

8. Update the Expense Accruals Policy and Procedures to reflect the change in the
   methodology. At a minimum, the policy and procedures should include the following:
   (Modified repeat recommendation




                                          4-2
       a. documentation of the procedures and flow of information used in developing grant
           accrual estimates;
       b. a discussion of who (position title) is responsible for each step of the estimate as
           well as the review and approval process followed;
       c. the model used, the rationale for selecting the specific methodology, and, for
           programs with sufficient historical data, the degree of calibration within the
           projected spending model; and
       d. the sources of information, the logic flow, and the mechanics of the model,
           including the fonnulas and other mathematical functions.

9. Develop audit procedures for the MCA audit to compare spending authority amount
   granted against actual MCA expenses, and investigate and document significant
   variances. MCC should maintain a library of historical MCA financial data. This
   information may be by MCC to validate or enhance its cunent methodology.

10. Continue to enhance the accrual methodology by:
       a. stratifying the MCAs based on variances in their spending rates and/or stages in the
          compact's life cycle;
       b. developing and implementing a process to ensure that compacts that are partially
          managed by MCC are fully addressed within the grant accrual process.
       c. addressing situations where the MCA exceeds its quarterly spending authority;
       d. addressing situations where the compact has expired and there is no spending
          authority and disbursements are still occuning;
       e. obtaining detailed document level breakdown of expenses to be used to compare
          against the accrual estimates;
       f. reviewing the disbursement patterns by compact to identify those with large
          fluctuations to determine the cause so that adjustments can be made in developing
          the spending plan or in how the grant accrual is calculated to improve the accuracy
          of the grant accrual estimate.; and
       g. other factors as deemed necessary to achieve an acceptable precision of the accrual
          estimate.

Response from MCC:
MCC concurs with recommendation 7 - 10.

Signijicant Deficiency: Monitoring of MCAs Audits Needs to be Strengthened (Modijied
Repeat Finding)

Recommendation fi'om the auditors:

11. Continue the collaboration between the USAID OIG and the MCC management to
    improve timeliness of the MCA audits; adequacy of the MCA audit procedures;
    monitoring and reviewing the quality and performance of the MCA audits; and tracking
    and conducting follow-up of conective action plans with the MCAs timely.

Response from MCC:




                                       4-3
MCC concurs with recommendation 11.

Significant Deficiency: Information Systems Controls Need Improvement (Modified
Repeat Finding)

Recommendation from the auditors:

12. Repeat recommendations :!i'om the FISMA RepOlt.

Response from MCC:
MCC concurs with recommendations from the FISMA RepOlt.


Sincerely,




   /s/

Chan~in Wong
Vice P.(esident, Administration and Finance and
Chief Financial Officer




                                      4-4
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
